No. 21A-21
IN THE SUPREME COURT OF THE UNITED STATES
JOSEPH R. BIDEN, JR., PRESIDENT OF THE UNITED
STATES, ET AL., APPLICANTS
v.
STATE OF TEXAS, ET AL.
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the REPLY IN SUPPORT OF APPLICATION FOR A STAY AND REQUEST FOR
AN ADMINISTRATIVE STAY, via e-mail and first-class mail, postage prepaid, this 24th day of

August 2021.

Brian H. Fletcher
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
August 24, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

21ABIDEN, ET AL. V. STATE OF TEXAS, ET AL.
JUDD EDWARD STONE, II
OFFICE OF THE ATTORNEY GENERAL
OFFICE OF THE SOLICITOR GENERAL
209 W. 14TH STREET
AUSTIN, TX 78701
512-936-1700
JUDD.STONE@OAG.TEXAS.GOV
LANORA CHRISTINE PETTIT
OFFIC OF THE ATTORNEY GENERAL
OFFICE OF THE SOLICITOR GENERAL
P.O. BOX 12548 (MC 059)
AUSTIN, TX 78711-2548
512-936-1700
LANORA.PETTIT@OAG.TEXAS.GOV
WILLIAM THOMAS THOMPSON
ASSISTANT GENERAL COUNSEL
ATTORNEY GENERAL OF TEXAS
OFFICE OF SPECIAL LITIGATION
P.O. BOX 12548 (MC 009)
AUSTIN, TX 78711-2548
512-936-2567
WILL.THOMPSON@OAG.TEXAS.GOV
JESUS ARMANDO OSETE
OFFICE OF THE ATTORNEY GENERAL
FOR THE STATE OF MISSOURI
207 W. HIGH STREET
JEFFERSON CITY, MO 65101-0000
573-645-2763
JESUS.OSETE@AGO.MO.GOV

21ABIDEN, ET AL. V. STATE OF TEXAS, ET AL.
DEAN JOHN SAUER
OFFICE OF THE ATTORNEY GENERAL
FOR THE STATE OF MISSOURI
207 W. HIGH STREET
JEFFERSON CITY, MO 65101-0000
573-751-8807
JOHN.SAUER@AGO.MO.GOV

